No. 19-

IN THE

bupreme Court of the

6tatecs

IN RE: MELBA L. FORD
Petitioner,
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

MELBA L. FORD
In propria persona
1403 ECHO LANE
HANFORD, CA 93232
559-772-9366

November 6, 2019

THREE QUESTIONS of FIRST IMPRESSION
PRESENTED FOR REVIEW
Question 1.
Does a defendant in an IRS/DoJ civil forfeiture
proceeding have a constitutionally protected,
due process right to counsel?
Question 2.
Even if there is no constitutional right to
counsel for defendants in a civil forfeiture case,
when assistance of counsel is sought by
unrepresented litigants who cannot afford it, is
a court required to provide factual and legal
reasons when denying such motion?
Question 3.
When a circuit panel denies motions for
assistance of counsel without providing a
scintilla of justification, then blocks
reconsideration and appeal to the en bans
circuit, does the panel violate litigants' rights
to due process of law?

PARTIES TO THE PROCEEDING
Melba L. Ford,
Petitioner In Propria Persona

Respondents
The Honorable 9th Circuit
(Judges involved in, or to become involved in
Appeal 18-17217, United States v. Ford)

11

TABLE OF CONTENTS
Page
THREE QUESTIONS of FIRST IMPRESSION
PRESENTED FOR REVIEW
PARTIES TO THE PROCEEDING

ii

TABLE OF AUTHORITIES

iv

JURISDICTION

1

STATEMENT OF THE CASE

1

RELEVANT LITIGATION HISTORY

2

BACKGROUND

4

ANOMALIES & MISREPRESENTATIONS

5

ANOMALOUS CIRCUIT ACTIONS

16

ARGUMENT

18

RELIEF REQUESTED

24

APPENDIX
APPENDIX 1 — U.S. Court of Appeals for the
Ninth Circuit
18-17217 - Order Denying
Appellant Ford's Motion for
Appointment of Standby Counsel
August 28, 2019

Hi

a

APPENDIX 2 — Petitioner's request for Judicial
Notice

c

TABLE OF AUTHORITIES
CASES

PAGE

Betts v. Brady, 316 U.S. 455 (1942)

19

Brafman v. United States, 384 F.2d 863
(5th Cir. 1967)

15

Franklin v. Murphy, 745 F.2d 1221
(9th Cir. 1984)

1, 22

Gideon v. Wainright, 372 U.S. 375 (1963)

19

Heidelberg v. Hammer, 577 F.2d 429
(7th Cir. 1978)

21

LaClair v. U.S., 374 F.2d 486, (7th Cir. 1967)

23

Maclin v. Freake, 650 F.2d 885
(7th Cir. 1991)

22

McBride v. Soos, 594 F.2d 610 (7th Cir 1979)

21

Morton v. Ruiz, 415 U.S. 199 (1974)

15

Olmstead v. U.S. 277 U.S. 438, (1928)

4

Romano-Murphy v. CIR, No. 13-13186
(11th Cir. 2016)

15

Weygandt v. Look, 718 F.2d 952
(9th Cir, 1983)

2, 3, 23

iv

Wilborn v. Escalderon, 789 F.2d 1328
(9th Cir, 1986)

2, 23

STATUTES
28 U.S.C. §1651(a)
28 U.S.C. §1915

1
1, 2, 21

RULES
Supreme Court Rule 10(a)

3, 24

OTHER AUTHORITY
Internal Rev. Manual, §5.1.11.6.7, 6020(b) Auth

7

Internal Rev. Manual 5.18.1.6.1

8

JURISDICTION
The Supreme Court has jurisdiction under 28
U.S.C. §1651(a) to issue Writs of Certiorari to compel
a circuit panel to follow its own precedent by a.)
appointing assistance of counsel, or b.) by
alternatively, evaluating both the likelihood of
litigants' success on the merits and their ability to
articulate claims in light of the complexity of the
legal/factual issues involved, and by c.) allowing
litigants ability to move for reconsideration or for
access to the en banc Circuit to appeal any summary
denial of relief.
STATEMENT OF THE CASE
In the Ninth Circuit, a court "may request an
attorney to represent any person unable to afford
counsel", pursuant to 28 U.S.C. § 1915(e)(1). The
decision to appoint such counsel is within "the sound
discretion of the court and is granted only in
exceptional circumstances." Franklin v. Murphy, 745
F.2d 1221, 1236 (9th Cir.1984). So, the power to
appoint counsel does exist, in certain circumstances.
And in the Ninth Circuit, a finding of
exceptional circumstances when a litigant seeks
assistance of counsel requires, on a case by case basis,
at least 1.) an evaluation of the likelihood of the
plaintiffs success on the merits and 2.) an evaluation
of the plaintiffs ability to articulate his claims "in
1

light of the complexity of the legal issues
involved." Wilborn v. Escalderon, 789 F.2d 1328,
1331 (9th Cir.1986) (quoting Weygandt v. Look, 718
F.2d 952, 954 (9th Cir.1983)).
That said, as I have repeatedly claimed under
oath, I am an eighty-one year old American, too poor
to afford counsel, after years of IRS theft of my
property, and liens on the rest. But, I am not a
"pauper" and the forfeiture case against me is not
criminal, so representation under §1915 is not an
option for me.
Nevertheless, I NEED COUNSEL to help me
understand, marshal and correctly present the array
of complex factual and legal issues (many shown
below) which seem to me to preclude the imminent
seizure of my home.
RELEVANT LITIGATION HISTORY
On July 26, 2019, I filed a motion for
appointment of assistance of counsel [See 18-17217,
Docket Entry 18] to help defend me from the layered
government-initiated scheme to steal my home using
falsified IRS digital records and falsified paper
documents derived therefrom.
On August 28, 2019, a panel of the 9th
Circuit summarily denied my motion for
appointment of assistance of counsel without a word
of explanation. [See Appx. 1., or 18-17217, Docket
2

Entry 23]. The panel made no pretense of evaluating
the likelihood of my success on the merits, or of
evaluating my ability to articulate my claims in light
of the extreme factual and legal complexity of the
government program, (which appears to be using
falsified, IRS digital and paper records to attack me).
The panel also denied me ability to move for
reconsideration or seek relief from the en banc Ninth
Circuit. Thus, I have no remedy other than certiorari.
Accordingly, since the Ninth Circuit panel's
actions appear to have violated binding Circuit
precedent, thus has "departed from the accepted and
usual course of judicial proceedings", (per Wilburn
and Weygandt, etc., cited above), I request the
Justices of this Court exercise their "supervisory
power", (per S.Ct. Rule 10(a)), to resolve the three
questions "of first impression" arising from the
Panel's denial to me of assistance of counsel, i.e.,
Do unrepresented litigants have a right to
appointed assistance of counsel in complex civil
forfeiture cases?
Should a court evaluate with specificity the
likelihood of an unrepresented litigant's success
on the merits and her ability to articulate/
present the complex factual and legal issues
related to a civil forfeiture?
When a Panel denies without explanation a
request for appointed counsel, then blocks
reconsideration or access to the en banc Circuit,
do they violate a litigant's right to due process of
law?
3

BACKGROUND
IRS institutionally falsifies digital
records to justify criminal and civil
prosecutions of income tax "non-filers"
IRS-supplied evidence appears to prove IRS
invariably uses computer fraud to enable the Service
to enforce the income tax on those who don't
voluntarily self-assess, i.e., those whom IRS labels
"non-filers". The discovery of that surreptitious
program to falsify digital and paper records to justify
criminal prosecutions and property seizures has
earth-shattering implications, which are dispositive
to my case.1
More specifically, as mentioned below, IRS
never prepares substitute income tax returns on any
of the multiple conflicting dates shown in the
Service's all-controlling digital records, and paper
"Account Transcripts" or "Certifications" derived
therefrom.

I Since Congress cannot authorize the commission of crime
to enforce the law, (see Olmstead v. United States, 277
U.S. 438, 483, (1928), the incomparable dissent of
Brandeis, J.), yet since IRS appears to invariably falsify
federal records to justify civil forfeitures and criminal
prosecutions of "non-filers", as it did concerning me and
2003, Congress imposed no duty upon me requiring IRS'
commission of record falsification to enforce. Hence, I owe
no deficiency to the Treasury.

4

But proving a negative in the context of
summary judgment, (the FAILURE of IRS to prepare
the documents to which reference is made in their
falsified records), requires an evidentiary expertise
far beyond mine, an 81-year-old unlearned laywoman.
And, every lawyer knows that.
Restated, PROVING the absence of an act to
contest a summary judgment motion, (i.e., IRS'
failure to prepare a substitute income tax return on
any date shown in IRS' digital and paper records), is
virtually impossible for an unstudied layperson.
So, I NEED COUNSEL, and I correctly
requested it. But, I have been summarily denied that
assistance by the Circuit. Such denial violates my
right to due process of law.
ANOMALIES & MISREPRESENTATIONS
The facts listed next seem to raise insuperable
barriers to the seizure of my property. If the
Government were to prove me wrong about the facts
shown, I would concede my error. But, the
Department of Justice literally ignores and will not
address anything I raise, lumping and labeling every
fact issue shown here as "tax-defier arguments".2

The core issues listed here have been repeatedly raised
elsewhere to no effect by victims of the IRS record
falsification program. In Appendix 2., I list dozens of
2

5

The Commissioner of IRS has repeatedly
stated the income tax is voluntary.3
IRS has repeatedly conceded 6020(b) does not
pertain to income taxes.4

cases and appeals, including paid petitions to this Court,
wherein these issues were raised, but never adjudicated.
3 For SEVEN examples:
-- "Each year American taxpayers voluntarily file their
tax returns and make a special effort to pay the taxes
they owe." Johnnie M. Walker, IRS Commissioner, 1971,
Internal Revenue 1040 Booklet. And
--"Our tax system is based on individual self-assessment
and voluntary compliance." Mortimer Caplin, IRS
Commissioner, 1975 Internal Revenue Audit Manual. And
—"The IRS's primary task is to collect taxes under a
voluntary compliance system." Jerome Kurtz, IRS
Commissioner, 1980 Internal Revenue Annual Report.
And
--"... Encourage and achieve the highest possible degree of
voluntary compliance... " Harold M. Browning, IRS
District Director, Hawaii, 1984. And
--"Let's not forget the delicate nature of the voluntary
compliance tax system... " Lawrence Gibbs, IRS
Commissioner, Las Vegas Review Journal, May 18, 1988.
And
--"We don't want to lose voluntary compliance... We don't
want to lose this gem of voluntary compliance." Fred
Goldberg, IRS Commissioner, Money magazine, April,'
1990. And
--During testimony before the Eighty-Third Congress in
1953, Dwight E. Avis, head of the Alcohol and Tobacco
Tax Division, Bureau of Internal Revenue, testified before
the Ways and Means Committee, "Let me point this out
now: Your income tax is 100 percent voluntary tax, and
your liquor tax is 100 percent enforced tax. Now, the
situation is as different as night and day."
6

No government-produced document, sworn
declaration, or Treasury Delegation Order
expressly claims 6020(b) applies to income
taxes. For example, TDO 5-2 does NOT
expressly state that 6020(b) applies to income
tax. [That deliberate vagueness allows judges
to simply presume 6020(b) applies to income
taxes, when it likely doesn't.]
On February 10, 2017, government lawyers
initiated their forfeiture case against me,
seeking to seize my fully-paid-for home. [See
17-00187, E. D. of Cal., Doc. 1, Complaint]
During discovery, DoJ Tax Division head,
(Principal Deputy Assistant Attorney General
Richard E. Zuckerman), provided IRS manuals
proving that no summary record of assessment
In Section 5.1.11.6.7 of IRS' Internal Revenue Manual,
("IRM", the "Bible" to IRS employees), IRS claims that
said authority is limited to "employment, excise and
partnership
taxes".
[Link
here:
'

http://www.irs.gov/irm/part5/irm 05- 001- 011r-ont01.html,

scroll down to 5.1.11.6.7 "IRC 6020(b) Authority".] The
limitation on the authority to perform substitute returns
to only employment, partnership and excise matters is
precisely confirmed in the Revenue Officer's Training
Manual, Unit 1, Page 23-2: "The IRM restricts the broad
delegation shown in figure 23-2... to employment, excise
and partnership tax returns because of constitutional
issues."
7

was calculated, prepared and signed by an IRS
employee with duly delegated authority, and
no substitute income tax return was prepared
concerning me and the year he targeted: 2003.
Instead, the IRS manual citations Zuckerman
provided prove that IRS used its Sun
MicroSystems platform (upon which IRS once
ran its "Automated Substitute For Return"
program until suddenly suspending it in
September 2017)5 to calculate the "deficiency"
I supposedly owe, and to prepare unsigned
documents 6 he and all government-paid
attorneys would later claim were prepared

See Zuckerman-supplied IRM 5.18.1.6.1 (Re: ASFR
Dummy TC 150), et seq., for stunning proof the ASFR
program is wholly automated, run by computers, complete
with place-holding "dummy returns" that do not exist in
reality, etc.
6 Mr. Zuckerman's subordinate, Jonathan Hauck,
admitted in an email to me that IRS computers
determined my tax liability, and that IRS COMPUTERS
prepared a "30 day letter", a.k.a. Letter 2566, and a "90
day Letter", a.k.a. Letter 3219, neither of which was
signed, although one bore the name "Jan Sinclair". [See
17-00187, Docket Entry 34, Motion, Pg. 9, Hauck
February 8, 2018 email, 4th 11], wherein Mr. Hauck wrote"
"I believe I have explained that no paper 1040 was
filled out for you by some individual IRS worker. Your
tax liability was determined by a computer, hence the
"Automated" part of the ASFR acronym.
5

8

and signed by an authorized human on
"February 26, 2007".7

Restated, Tax Division Head Richard
Zuckerman provided incontrovertible internal
procedural documentation from IRS proving
the Service used its Sun MicroSystems (SMS)
Computer to calculate/assess the supposed
"deficiency amount" the attorneys claim I owe
in income taxes, and that said SMS Computer
generated on July 11, 2007 multiple unsigned
documents concerning me and 2003, which Mr.
Zuckerman stated in his filings were prepared
by a "duly authorized delegate of the Secretary
on Feb. 26, 2007". [See Footnote 7 for citation
to one such Zuckerman claim.]
The IRM segments Mr. Zuckerman provided
prove that one of the key documents IRS' SMS
computer prepared on July 11, 2006 was an
unsigned "Letter 2566" issued over the name
of a "Jan Sinclair", but which the computer
back-dated to "July 24, 2006".

For one example of Zuckerman's false claim in 17-00187,
See Doc. 35-2, Statement of Undisputed Facts, in Support
of Summary Judgment, 1148, pg. 8; "a duly authorized
delegate of the Secretary of the Treasury signed an
assessment" concerning me and 2003 on "Feb. 26th, 2007".
9

To conceal the fact no human ever prepared
and signed either a substitute income tax
return or a summary record of assessment in
INCOME TAX matters related to me, and to
conceal the fact IRS uses adjunct databases to
falsify its actionable, all-controlling Individual
Master File (IMF) records,8 (thus creating the
impression a duly authorized IRS human
prepared/signed substitute income tax returns
and summary records of assessments, when
they didn't), Mr. Zuckerman presented to the
Court in my case a Form 4340 Certificate. [See
17-cv-00187, Docket Entry 35-8, February 16,
2018]
Said Certificate shows multiple contradictory
dates upon which Mr. Drozd could presume
that 1.) a substitute income tax return had
been prepared, (when one wasn't), and that 2.)
a summary record of assessment had been
prepared/signed by a human, (when one
wasn't).

8 IRS uses either the Sun MicroSystems database or the
Audit Information Management System database to
insert into the targeted annual "module" of its allcontrolling Individual Master File software, data
reflecting IRS' pretended preparation of substitute income
tax returns, which never occur, and IRS' pretended
preparation of signed summary records of assessment,
which don't exist.

10

Incredibly, neither "Jan Sinclair", nor the July
24, 2006 date are shown on the unsigned
"Letter 2566" mentioned in the Form 4340
Certificate DoJ proffered to justify summary
judgment(!), despite DoJ's later claim: "On
July 24, 2006, Jan Sinclair...certified that she
intended the electronic data in taxpayer's
account to constitute a valid substitute return
under I.R.C. §6020(b)". [See 18-17217, Dkt.
Entry 29, Pg. 16 of 53, First Full ¶, third
Sentence.]
Restated, neither "Jan Sinclair" nor the date
July 24, 2006 (when she supposedly prepared
an assessment and a "6020(b) certification"),
appear in the Account Transcript or Form
4340 Certificate proffered to support summary
judgment(!). The SMS computer created the
document, wrongly dated it, and pretended to
append an electronic signature of Jan Sinclair.
Knowing that for a summary record of
assessment to be valid, it must be signed by an
appropriate officer, I reiterated my discovery
request for a sworn, signed copy of the
"substitute income tax return" shown in both
the IRS Account Transcript and the Form
4340 Certificate as supposedly having been
prepared on "08-14-2006."

11

But Mr. Zuckerman responded via email on
February 8, 2018: "The document locator
number associated with that document
appears to be an ASFR dummy return DLN",
and "When the IRM states 'dummy return', I
understand it is referring to an electronic
place-holder. There is no dummy return that
can be printed or produced."
During discovery, I asked repeatedly for
signed copies of both the "return" that the
Account Transcript showed IRS supposedly
"received" on July 11, 2006, (IRS labels that
date as the "Return Received Date") and the
"substitute tax return prepared by IRS" on
"08-14-2006". But, I was flatly told by
Zuckerman via email dated February 22, 2018
that: "there are no documents that are
responsive to these two requests."
In other words, no document exists dated "July
11, 2006", that supports IRS' claim it received
a return on that claimed "Return Received
Date". Nor does any document exist that was
dated "08-14-2006", as shown by IRS in both
the Form 4340 Certificate and the Account
Transcript as supposedly when a substitute
tax return was prepared by IRS.

12

The Certificate and Transcript proffered by
DoJ to support summary judgment were
fabricated to conceal the computer fraud used
to falsify IRS underlying all-controlling digital
records.
To further his desired seizure of my home, Mr.
Zuckerman procured the testimony of a
pseudonym-d IRS revenue officer, having him
declare under oath that a "duly authorized
delegate of the Secretary of the Treasury made
timely assessments" against me concerning
2003 on "02/26/2007".9 No such thing exists.
[See Record 17-cv-00187, All ]
Despite the fact no signed summary record of
assessment appears in the record [See 17-cv00187 Record, All], and despite the fact that
Judge Drozd knew Mr. Zuckerman provided,.
via discovery, irrefutable evidence that the
SMS Computer prepared unsigned, wrongly
dated "30 day" and "90 Day" letters on July 11,
2007, (which Mr. Zuckerman claimed were
prepared/signed by a duly authorized human
on February 26, 2007), and despite the fact no
"substitute tax return" was prepared by IRS
on "08-14-2006", as falsely shown in both the
proffered Account Transcript and Form 4340
See 17-cv-00187, Doc. 35-4, Declaration of "K.M.", Pg. 5,
¶ 30, for the unknown-named Revenue Officer's claim.

9

13

Certification, The Hon. Judge granted
summary judgment against me while
reiterating Zuckerman's claim: "a duly
authorized delegate of the Secretary of the
Treasury signed an assessment" concerning
me and 2003 on "Feb. 26th, 2007".10
To dispose of contradicting Internal Revenue
Manual (IRM) evidence provided by
Zuckerman in discovery, Judge Drozd held
that IRM procedural documentation provided
by Zuckerman in discovery was "not evidence"
Drozd could review. [See 17-cv-00187, Drozd
Order denying Rule 59/60 Relief, Doc. 87, pg.
4.]
To dispose of the repeated claims over the
years by the multiple Commissioners of IRS
concerning the voluntary nature of the income
tax, Mr. Drozd held that the Commissioner's
claims were "unpersuasive". [See 17-cv-00187,
Drozd Order denying Rule 59/60 Relief, Doc.
87, pg . 3, 3rd ¶ , 2nd sent.]
No substitute income tax return was prepared
or signed by a human being on July 11, 2006,
on July 24, 2006, on August 11, 2006 or on
See Drozd Order, September 28, 2018, [Docket 17-cv00187, Doc. 70, Pg. 4, Last Snt., Pg. 5, Table, Line 6] No
such document exists.
10

14

February 26, 2007. None appears in the record.
[See 17-cv-00187 record, All.]
No signed assessment appears in the record,
in violation of Treasury Regulations binding
on the Service, 11 and multiple holdings of
various courts.12
11 "Again, as we remarked almost 50 years ago, Treasury
regulations 'are binding on the Government as well as on
the taxpayer.' Brafman v. United States, 384 F.2d 863.
866 (5th Cir. 1967). Indeed, `[w]here the rights of
individuals are affected, it is incumbent upon agencies to
follow their own procedures.' This is so even where the
internal [agency's] procedures are possibly more rigorous
than otherwise would be required.'" Romano-Murphy v.
CIR, No. 13-13186, 11th Cir, March 7, 2016, citing Morton
v. Ruiz, 415 U.S. 199, 235 (1974)
12 In Brafman v. United States, The Hon. John Minor
Wisdom of the Fifth Circuit invalidated an assessment
not signed by the proper official, under this analysis:
"Mrs. Brafman contends, however, that no valid
assessment was made on July 23, 1956, because
the assessment certificate was not signed.... The
Treasury Regulations set forth the procedures
governing the assessment process: The District
Director shall appoint one or more assessment
officers, and the assessment shall be made by an
assessment officer signing the summary record of
assessment. The summary record, through
supporting records, shall provide identification of
the taxpayer, the character of the liability assessed,
the taxable period if applicable, and the amount of
the assessment.... The date of the assessment is the
date the summary record is signed by an
assessment officer. * * * Treas. Reg. § 301.6203-1
(1955) (emphasis added.)
15

If I were wrong, either on the facts above, or
on their meaning, I would concede my error. But,
again, the Department of Justice ignores the
outrageous factual anomalies outlined above,
viciously writing them off as merely "tax-defier
arguments".
And no judicial officer has ever
adjudicated these concerns, whether in civil cases or
on appeal. [See Appendix 2 for details.]
I contend that the institutionalized
falsification of IRS digital and paper records to
reflect the pretended preparation of substitute
income tax returns, which do not exist and which
were never prepared, (which falsification invariably
precedes attack on "non-filers"),
provides
irrefutable support to the Commissioners'
claims that 26 U.S.C. 6020(b) does not apply to
income tax, and that filing of returns is truly
voluntary. But, I need help to present the proof of the
fraud and non-existent documents.
ANOMALOUS CIRCUIT ACTIONS
On July 11, 2019 I filed my Emergency
Motion to Stay Briefing [See 18-17217, Docket Entry
15] in my appeal pending my application to this
Court to remove my appeal here. The Circuit refused
to rule on my emergency motion, forcing me, an
unlearned laywoman, to file a rushed brief.

16

On July 26, 2019, pursuant to the Briefing
Schedule set by the Court on June 26, 2019, [1817217, Docket Entry 14), I rushed my rough Brief on
Appeal to the Circuit. [Docket Entry 17.]
On July 26, 2019, I also filed my motion for
counsel to be appointed to assist me. [18-17217,
Docket Entry 18]
On August 16, 2019, DoJ Attorney Anthony
Sheehan filed a "streamlined request" for extension
of time to file the Government's answering brief. [1817217, Docket Entry 19]. He did not serve me his
"request".
On August 16, 2019, a deputy clerk entered
this in the docket: "Streamlined request [19] by
Appellee USA to extend time to file the brief is not
approved because it is unnecessary. The briefing
schedule is stayed." [18-17217, Docket Entry 20] But,
no judge had issued a stay; my motion for extension
had been ignored. [See Record, All]
On August 28, 2019, someone issued an
unsigned "order" denying 1.) appointment of counsel
to help me, and denying 2.) any opportunity to file for
reconsideration of the bald denial of counsel, and
denying 3.) any opportunity to seek relief in the en
banc Circuit of the denial of counsel, and purporting
to 4.) deny my long-mooted motion to stay briefing,
17

but granting the DoJ's unserved streamlined request,
which the Clerk had held "unnecessary", (since, she
had declared, a stay was supposedly already in place).
[18-17217, Docket Entry 23]
ARGUMENT
Question 1. Does a defendant in an
IRS/DoJ civil forfeiture case have a
constitutionally protected, due process
right to counsel?
No circuit has ever determined whether
appointment of counsel in civil forfeiture cases is
mandated by the rights of defendants. So, the issue
of whether or not justice REQUIRES appointment of
counsel in civil forfeitures initiated by the
Government should be decided now.
I contend that when judicial branch lawyers
compel unlearned defendants to fight alone against
executive branch lawyers wielding the might and
leverage of the world's most powerful government,
such setting is a manifest injustice. And, since there
is minimal distinction between civil property
forfeiture actions and criminal prosecutions,13 there
13 From my preliminary research, the three "elements"

the government must prove in §7203 "willful failure to file"
prosecutions are: 1.) A person was required to file (proven
by gross income), but 2.) Failed to file a return, and 3.)
Willfulness. Those seem almost identical to the elements
the government must prove in civil forfeiture cases, like I
am experiencing: 1.) A person was paid X amount
(triggers a duty to file), 2.) Supposedly knew of a duty to
18

is NO arguable difference in the justification for
appointed counsel to assist defendants in either type
of action.
In Gideon v. Wainright, 372 U.S. 375, (1963)
the Supreme Court held that the Sixth Amendment's
guarantee of counsel is a fundamental right essential
to a fair (criminal) trial. In overturning Betts v.
Brady, 316 U.S. 455, (1942), in which the Court had
held that the refusal to appoint counsel for an
indigent defendant charged with a felony in state
court did not necessarily violate the Due Process
Clause of the Fourteenth Amendment, Justice Black
stated that "reason and reflection require us to
recognize that in our adversary system of criminal
justice, any person haled into court, who is too poor
to hire a lawyer, cannot be assured of a fair trial
unless counsel is provided for him."
He further wrote that the "noble ideal" of "fair
trials before impartial tribunals in which every
defendant stands equal before the law with
government attorneys. . . cannot be realized if the
poor man charged with crime has to face his accusers
without a lawyer to assist him."
As I have contended in my Opening Brief on
Appeal in 18-17217, [Docket Entry 17, Pg. 6, Issue
VII], I now contend here that Justice Black's
file, and 3.) Did not file a return. I contend that
appointment of counsel is mandatory when the
government can either destroy a person's liberty or their
life-time investment in property. There is no difference.
19

rationale in Gideon applies with equal force to my
case and to all civil actions initiated by governmentpaid attorneys to justify seizures of private property.
It is especially apropos when, as here, explicit, nonconclusory claims are made that the attempted
seizure is based on falsified government records
knowingly used by every involved government-paid
attorney.
Since there is virtually no difference in the
elements necessary to secure a government victory in
either a civil forfeiture or criminal prosecution,
Justice Black's rationale applies with equal force to
both types of prosecution. Without appointment of
assistance of counsel, there will never be "a fair trial
before an impartial tribunal, where every civil
defendant stands equal before the law with
government attorneys." If "a poor woman has to face
her accusers without a lawyer to assist her," all men
and women of good will realize such litigation is a
farce, a mockery of the litigants' right to due process,
especially in the evidentiary crucible of summary
judgment.
I am now presenting that never-before
adjudicated issue of first impression, and I request
the Court fulfill its moral obligation to me, a poor
woman haled before the court, to provide assistance
of counsel so I can "'stand equal before the law with
government attorneys."

20

Question 2. Even if there is no
constitutional right to counsel for
defendants in a civil forfeiture case,
when assistance of counsel is sought by
unrepresented litigants who cannot
afford it, is a court required to provide
factual and legal reasons when denying
such motion?
Federal courts are empowered by statute to
appoint counsel when circumstances justify it.
Section 1915 of Title 28 of the United States
Code authorizes a court to request an attorney to
represent a party in a civil action who is
proceeding in forma pauperis. The decision to
appoint counsel for a civil rights litigant rests with
the discretion of the trial court. McBride v. Soos, 594
F.2d 610, 613 (7th Cir. 1979); Heidelberg v.
Hammer, 577 F.2d 429, 431 (7th Cir. 1978).
And, only when the denial of counsel results in
"fundamental unfairness impinging on due process
rights" will a denial of counsel be overturned. La
Clair v. United States, 374 F.2d 486, 489 (7th Cir.
1967).
Every Circuit that has written on the subject
agrees. For example, in the 7th, "a court's discretion
is to be guided by a consideration of all the
circumstances of the case and particular emphasis is
to be placed upon 'certain factors' that have been
recognized as highly relevant to a request for

21

counsel." Maclin v. Freake, 650 F.2d 885, 887 (7th
Cir. 1981).
Foremost among the "certain factors" that an
appointing court must consider in the 7th Circuit is
an analysis of the merits of the indigent litigant's
claim from both a factual and legal standpoint.
Maclin makes clear that a court need not appoint
counsel when it considers the litigant's chances of
success to be extremely slim. Id. at 887.
"In addition to the merits of a case, the 7th
holds that a court may consider any of a number of
factors. Among these factors are the complexity of
the legal issues presented and the capability of the
litigant to recognize and present the issues, the
complexity and conflicting nature of the facts, the
ability of the litigant to investigate his case, and the
relative substantive value of the claims presented.
Because each case is unique, a decision to appoint
counsel can be made only after the proper legal
principles have been applied to the facts presented in
each case." Id. at 888. But, I request that it be noted,
an analysis MUST be made.
And, as also noted above, the Ninth Circuit
also recognizes that the decision to appoint counsel is
within "the sound discretion of the court and is
granted only in exceptional circumstances." Franklin
v. Murphy, 745 F.2d 1221, 1236 (9th Cir.1984). The
finding of exceptional circumstances when a litigant
seeks assistance of counsel requires at least 1.) an

22

evaluation of the likelihood of the plaintiffs success
on the merits and 2.) an evaluation of the plaintiffs
ability to articulate his claims "in light of the
complexity of the legal issues involved." Wilborn v.
Escalderon, 789 F.2d 1328, 1331 (9th Cir.1986)
(quoting Weygandt v. Look, 718 F.2d 952, 954 (9th
Cir.1983)). Again, I request it should be noted, an
evaluation MUST be made.
I contend that the refusal of the Circuit panel
to provide even a shred of reasoning for its denial of
my request for appointment of assistance of counsel,
despite the complexity of the layered digital,
document and attorney fraud being used to justify
the theft of my property,. and despite my overtaxed
ability to battle multiple government-paid attorneys'
relentless efforts to defraud me, is a blatant
violation of precedent set in all circuits, including
that of the Ninth.
Question 3. When a circuit panel denies
motions for assistance of counsel without
providing a scintilla of justification, then
blocks reconsideration and appeal to the
en banc Circuit, does the panel violate
litigants' rights to due process of law?
I claim that the Ninth Circuit denial of my
request for assistance of counsel, [See Appx. 1.],
without providing a hint of explanation, or any sign
that an evaluation occurred, standing alone, resulted
in "fundamental unfairness impinging on (my) due
process rights". [See LaClair v. United States, 374

23

F.2d 486, 489 (7th Cir. 1967), for persuasive
authority.]
But, when the panel destroyed my right to
seek reconsideration or en banc review of its bald
decision, it annihilated my right to due process of law
in such a blatant departure "from the accepted and
usual course of judicial proceedings, as to call for an
exercise of this Court's supervisory power" per
Supreme Court Rule 10(a).
I respectfully request the Justices of this Court
intervene, to end the ongoing farce and mockery of
justice occurring in the Ninth Circuit Court of
Appeals.
RELIEF REQUESTED
In this case of first impression, I respectfully
request the Court find that there is no arguable
difference between civil forfeiture cases and criminal
prosecutions, although defendants' rights to
appointment of assistance of counsel could/would be
grounded on the Fifth Amendment due process clause
rather than on the Sixth Amendment.
Further, I respectfully request the Court hold
that appointment of counsel for defendants is
mandatory in civil forfeitures initiated by the
Government.
Alternatively, if the Court denies I have a
RIGHT to counsel as a defendant in a civil forfeiture
case, I move this Court to order any judge
adjudicating a motion for appointment of counsel,
whether in a district or circuit proceeding, to analyze
and present a thorough evaluation of the merits of
24

the unrepresented litigant's claim from both a factual
and legal standpoint, including, minimally 1.) an
explicit, detailed evaluation of the likelihood of the
litigant's success on the merits and 2.) an evaluation
of the litigant's ability to articulate her claims "in
light of the complexity of the legal issues involved."
Finally, I request the Court find that, when
the Ninth Circuit panel denied my request for
assistance of counsel, without a hint of explanation,
then blocked any motion for reconsideration or for
access to the en bane circuit, such action was a
"fundamental unfairness impinging on (my) due
process rights", and a "manifest departure from the
accepted and usual course of judicial proceedings, as
to call for an exercise of this Court's supervisory
power."
I and all others similarly situated
desperately need assistance of Counsel. Please
address that need now.
It is respectfully presented,

Melba L. Ford
1403 Echo Lane
Hanford, CA 93232
559-772-9366
In Propria Persona

25

